No. _______
In The

Supreme Court of the United States
-------------------------- ʕ ---------------------------

DR. ORIEN L. TULP, PRESIDENT OF THE
UNIVERSITY OF SCIENCE, ARTS, AND
TECHNOLOGY,
Petitioner,

v.
EDUCATIONAL COMMISSION FOR FOREIGN
MEDICAL GRADUATES; DR. WILLIAM W.
PINSKY, PRESIDENT AND CEO, EDUCATIONAL
COMMISSION FOR FOREIGN
MEDICAL GRADUATES,
Respondents.
-------------------------- ʕ --------------------------

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-------------------------- ʕ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ʕ --------------------------

Tommy Swate
Counsel of Record
SWATE LAW
403 Wild Plum
Houston, Texas 77013
(713) 377-4860
swatemd@aol.com
Counsel for Petitioner

Dated: January 14, 2021

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTIONS PRESENTED
1.

Did the lower Court fail to adhere to the
axiom that in ruling on a motion for
summary judgment “the evidence of the
non-movant is to be believed and all
justifiable inferences are drawn in his
favor”?

2.

Did the lower Court violate its function
at summary judgment by weighting the
evidence and determine the truth of the
matter instead of determining whether
there was a genuine issue for trial?

3.

Did the lower Court’s opinion reflect a
clear misapprehension of summary
judgment standards in light of this
Court’s precedent in Tolan v. Cotton,
572 U.S. 650, 660 (2014)?

ii
PARTIES TO THE PROCEEDINGS
The caption of the case contains the names of
all the parties.
STATEMENT OF RELATED CASES
There are no related cases.
CORPORATE DISCLOSURE STATEMENT
The caption of the case contains the
relationships of all the parties to institutions involved
in petition

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDINGS ......................... ii
STATEMENT OF RELATED CASES ....................... ii
CORPORATE DISCLOSURE STATEMENT ............ ii
TABLE OF AUTHORITIES ...................................... iv
CITATIONS OF OPINIONS ...................................... 1
STATEMENT OF THE BASIS
FOR JURISDICTION ................................................. 1
WRIT’S IMPORTANCE ............................................. 1
CONSTITUTIONAL PROVISIONS AND
STATUTES ................................................. None cited
STATEMENT OF THE CASE ................................... 1
REASONS FOR GRANTING THE WRIT ................. 9
CONCLUSION ......................................................... 14

iv
APPENDIX:
Unpublished Opinion and Judgment of
The United States Court of Appeals
For the Third Circuit
entered August 17, 2020 ................................ 1a
Memorandum Opinion of
The United States District Court
For the Eastern District of Pennsylvania
entered June 25, 2019 .................................. 11a
Order of
The United States District Court
For the Eastern District of Pennsylvania
Re: Granting Defendant Education
Commission for Foreign Medical
Graduates’ Motion for Summary Judgment
entered June 25, 2019 .................................. 33a

v
TABLE OF AUTHORITIES
Page(s)
CASES
Adickes v. S.H. Kress & Co.,
398 U.S. 144 (1970) ........................................ 11
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 106 S. Ct. 2505 (1986) ...... 14
Armstrong v. Manzo,
380 U.S. 545 (1965) .......................................... 8
Brosseau v. Haugen,
543 U.S. 194 (2004) ........................................ 10
Celotex Corp v. Cartarett,
477 U.S. 317 (1986) ........................................ 13
Psi Upsilon of Phila v. Univ of Pa.,
591 A 2d 755 (Pa. Super. 1991) ..................... 11
Sch. Dist. Of City of Harrisburg v.
Pennsylvania Interscholastic Athletics Association,
309 A. 2d 353 (Pa 1973) ............................... 3, 8
Simer v. Rios,
661 F.2d 655 (7th Cir. 1981) .......................... 12
Tolan v. Cotton,
572 U.S. 650 (2014) ................................ 1, 9, 14

vi
STATUTE
28 U.S.C § 1254(1) ...................................................... 1
RULE
Fed. R. Civ. P. 56(a) .................................................... 9
OTHER AUTHORITY
World Directory of Medical Schools
(https://search.wdoms.org/home/SchoolDetail/
F0000836) ................................................................... 2

1
CITATIONS OF OPINIONS
The case was appealed from the United States
District Court for the Eastern District of
Pennsylvania No 2-18-cv-05540 to United States of
Appeals for the Third Circuit No. 19-2706. The United
States of Appeals for the Third Circuit in issued it
Judgment on 08/17/2020 1a.
STATEMENT OF THE BASIS
FOR JURISDICTION
The Judgement of the Court of Appeals was
entered on August 17, 2020. The Court's jurisdiction
rests on 28 U.S.C. section 1254(1)
WRIT’S IMPORTANCE
Due process dictates that all Courts must
operate under a clearly defined set of standards in
granting summary case disposition. The Lower Court
blatantly ignored this Court’s ruling in Tolan v.
Cotton that established summary judgment evidence
standards. Tolan v. Cotton, 572 U.S. 650, 660 (2014).
In violation of the ruling in Tolan v. Cotton the Lower
Court granted Movant summary motion despite
Movant’s due process violation admissions. This case
is important to this Country’s jurisprudence because
of the need for all Circuits to follow uniform summary
case deposition standards when litigants are
threatened with having their rights to a jury trial
denied.
STATEMENT OF THE CASE
The University of Science, Arts, and
Technology (USAT) is a medical school licensed by
Monserrat, A British Protectorate in the Caribbean.
SAppx 0061-0065 Upon graduation the majority of

2
the graduates seek post graduate medical training
(residency) in the United States. In order to be
considered eligible for post graduate medical training
in the United States the graduates have to be certified
by the Educational Commission for Foreign Medical
Graduates (“ECFMG”). SAppx. 0088-0089
The World Directory of Medical Schools is a
web site used by future or current medical students to
determine if credits from foreign medical schools are
acceptable to the ECFMG. SAppx 0223
On or about September 28, 2018, Dr. Tulp,
President of USAT discovered that the ECFMG had
posted negative and prejudicial information on a web
site,
World
Directory
of
Medical
Schools
(https://search.wdoms.org/home/SchoolDetail/F00008
36), regarding USAT College of Medicine. SAppx 744
The information was posted by ECFMG, a
private organization that certifies foreign medical
students (“FMG”) and international medical
graduates (“IMG”). SAppx 147 An ECFMG
certification is required for a FMG or an IMG to
obtain a residency position in a United States Medical
Residency program. A FMG or an IMG is required to
obtain ECFMG certification in order to obtain a U. S.
medical training position (residency). The ECFMG
acts as a gatekeeper for entry into the United States
health training system.
Any action by a student or any other person
that may interfere with the ECFMG credentialing
process can be labeled “Irregular behavior”. The
ECFMG by its own rules gives a person charged with
“irregular behavior” a right to due process and
Pennsylvania also imposes a due process right on a
private organization when the private association has

3
deprived a member or prospective member of
substantial economic or provisional advantage.
Sch. Dist. Of City of Harrisburg v. Pennsylvania
Interscholastic Athletics Association, 309 A. 2d 353,
357 (Pa 1973).
On September 14, 2018, The ECFMG placed a
negative prejudicial sponsor Note in the World
Directory of Medical School. S Appx. 745 The World
Directory of Medical Schools web site informs
potential and present students whether graduates
from USAT are eligible to apply for an ECFMG
certificate. The notice was a warning to future and/or
current students that USAT credits might not be
acceptable to the ECFMG. S Appx 0223-0224 An
additional negative note was published on the website
on October 18, 2020. The ECFMG published the
negative information prior to giving Dr. Tulp (Nonmovant) notice regarding the charges alleged in the
negative sponsor note. SAppox 753-754 The note
equated to an allegation Dr. Tulp had engaged in
“irregular behavior” by holding USAT classes in the
United States.
The ECFMG in its brief (SAppx 0223-0224)
made the following admissions:
1. The ECFMG placed a sponsor note in the World
Directory of Medical Schools to inform USAT
students and USAT graduates regarding their
eligibility to apply for Movant’s (ECFMG)
certificate. SAppx 778
2. On or around September 14, 2018, The ECFMG
(Movant) updated its Sponsor Note for USAT
with prejudicial negative information. SAppx
778

4
3. The ECFMG (Movant) updated its Sponsor
Note for USAT again on or about October
18th with prejudicial negative information.
SAppx 778
4. The ECFMG (Movant) sent a letter
summarizing and describing in detail the
allegations of “irregular behavior” on October
18, 2018, after publishing negative information
on the Internet. SAppx 778
5. The ECFMG (Movant) published the
September 24th and October 18th Sponsor
Notes without giving Dr. Tulp (Non-Movant)
the right to dispute the “irregular behavior”
prejudicial allegations. SAppx 0804
6. The ECFMG (Movant) admitted that it
imposed a limited sanction on Non-Movant
without notice or hearing. SAppx 845
The decision to post the derogatory information
was made by the ECFMG (Movant) prior to any notice
or hearing regarding the ECFMG’s allegations
against USAT and Dr. Tulp (Non-Movant). ECFMG
(Movant) posted the information in spite of the fact
that, prior to making a negative determination,
ECFMG granted any person or entity the right to
notice and a hearing. In order for ECFMG (Movant)
to make a determination of “Irregular behavior”
ECFMG’s rules required ECFMG to present evidence
to the ECFMG’s Credentials Committee (“MECC”).
The MECC is commanded by ECFMG’s rules to base
a determination of “irregular behavior” on a
preponderance of evidence presented to the MECC.
SAppx 0203

5
An ECFMG’s Credentials Committee hearing
was scheduled for November 28, 2018 to hear the
ECFMG’s “irregular behavior” allegations against Dr.
Tulp. “Irregular behavior” is defined as ”all actions or
attempted acts on part of applicants or any other
person that would or could subvert the examination,
certificate or other processes, programs or actions of
The ECFMG” SAppx 200 The hearing was conducted
by the ECFMG’s litigation attorney acting as the
MECC chairperson.
At the start of the November 28th MECC
hearing, the ECFMG was asked by Dr. Tulp’s
attorney what specific allegations were being made
against Dr. Tulp. The ECFMG’s litigation attorney
refused to reveal the specific allegations to the
committee in an open committee hearing. The
ECFMG’s litigation attorney insisted that Dr. Tulp
answer questions posed by the MECC’s individual
members prior to knowing what specific charges and
evidence the Credentials Committee (MECC) were to
consider and the evidence the MECC had reviewed
prior to the hearing. Dr. Tulp (Non-Movant) was
given only the right of allocution.
The ECFMG’s litigation Attorney acting as
MECC chairperson was asked to tell Dr. Tulp what
evidence had been given to the MECC prior to the
hearing. She was also asked to supply Dr. Tulp with
copies of the communication between ECFMG’s staff
and the MECC regarding the charge of “irregular
behavior”. The ECFMG’s chairperson refused to
supply Dr. Tulp with the requested information. The
ECFMG’s litigation attorney acting as chairman,
refused to tell the MECC what the specific “irregular
behavior” allegation was, or what evidence supported
the ECFMG’s claim of “irregular behavior”.

6
The ECFMG’s litigation attorney had given
Dr. Tulp’s attorney, immediately prior to the hearing
as he entered the hearing room, two large black
notebooks of alleged evidence. This information was
claimed supplied to the Credentials Committee
(MECC) individual members prior to the November
28th hearing, but not given to Dr. Tulp until
immediately prior to the November 28th hearing.
SAppx 0447, 0469
Dr. Tulp’s attorney instructed Dr. Tulp not to
testify until the evidence against him were stated to
the MECC as a body. SAppx 799 The ECFMG’s
litigation attorney acting as prosecutor refused to
place in the hearing records any “irregular behavior”
evidence. SAppox 769, Instead the ECFMG’s
litigation attorney insisted that Dr. Tulp respond to
questions before the MECC prior to alleged “irregular
behavior” evidence being disclosed to the MECC
members setting as a body. Dr. Tulp was only given
the right of allocution.
When Dr. Tulp’s attorney opened the two large
black evidence notebook given to him when he sat
down in the room to start the November 28th MECC
hearing, Dr. Tulp’s attorney pointed out to the MECC
that the notebooks contained evidence of an unknown
person, the ECFMG’s litigation attorney acting as
MECC committee chair immediately adjourned the
meeting prior to any evidence being present by either
the ECFMG or Dr. Tulp. SAppx. 789 This action alone
should create a material fact issue.
The ECFMG’s litigation Attorney controlled
the hearing. The ECFMG’s litigation attorney refused

7
to put any evidence in to the hearing record. SAppx
789 The hearing evidence record is virtually a blank
slate.
The MECC was required by ECFMG policy to
determine if “irregular behavior”had occurred based
on the preponderance of the evidence presented to the
MECC. SAppx 0203 No evidence or specific
allegations were presented to the MECC during the
November hearing. SAppx. 0789 Without hearing
specific allegations or evidence as a body, the MECC
voted to find that Dr. Tulp had engaged in “irregular
behavior”. The accusers, acting as the adjudicators,
voted on the undisclosed specific “irregular behavior”
allegations based on undisclosed evidence. SAppx
0369
The ECFMG (Movant) by its own admissions
established material factual issues. SAppx. 845 The
ECFMG’s (Movant) in its appendix attached to its
Lower Court’s (District Court) brief claimed the
following facts were undisputed:
1. Committee is required to make a decision
based on preponderance of evidence before
committee. SAppx 0203
2. No evidence was presented at the November 28
hearing. SAppx 789
3. By a preponderance of the evidence the
decision of “irregular behavior” is required to
be based on evidence presented to the
Credentials Committee at the November 28th
hearing SAppx 203

8
4. The November 28th proceeding was only to
give Dr. Tulp an opportunity to make a
statement on his behalf. SAppx 203
5. The ECFMG acted prior to November 28
hearing. SAppx 0332
6. The ECFMG posted a derogatory notice in midSeptember SAppx 0350
7. New evidence was given to Dr. Tulp seconds
before the November 28th hearing started.
SAppx 0447, 0469
The Third Court of Appeals admitted that the
ECFMG (Movant) owed Dr. Tulp a duty of common
law due process. Sch. Dist. Of City of Harrisburg v.
Pennsylvania Interscholastic Athletics Association,
309 A. 2d 353, 357 (Pa 1973). More importantly the
ECFMG (Movant) gave Dr. Tulp (Non-Movant) the
right to a hearing with the hearing decision based on
a preponderance of evidence heard by the MECC.
Both a duty of common law process and a contractual
due process duty require that fundamental due
process requirements be met by the opportunity to be
heard “at a meaningful time and in a meaningful
matter”. Armstrong v. Manzo, 380 U.S. 545 (1965).
The ECFMG produced no witnesses and no
evidence during the November 28th MECC hearing.
No evidence was submitted to the MECC setting as a
body on November 28th. The ECFMG litigation
attorney adjourned the hearing prior to presenting or
hearing any evidence.
The Lower Court found no due process
violation in the record by finding that Dr. Tulp (NonMovant) raised no genuine material fact issue as to

9
whether he was heard in a meaningful manner. The
Lower Court’s findings were made in the face of
“undisputed” facts supporting Dr. Tulp’s (NonMovant) claims by the Lower Court weighting the
evidence in ECFMG’s (Movant) favor. SAppx 845
REASONS FOR GRANTING THE WRIT
A factual dispute exists as to whether Dr. Tulp
(Non-movant) was given the opportunity to be heard
at a meaningful time and in a meaningful manner
prior to the ECFMG (Movant) posting the derogatory
information on the internet. The Lower Court erred
when it failed to address Dr. Tulp’s (Non-movant)
material evidence that he was not given notice and
hearing prior to the ECFMG (Movant) posting
“irregular behavior” claims on the internet prior to
the November 28th hearing. The ECFMG (Movant)
by its own admission established a material fact issue
that Dr. Tulp was denied due process prior to the
November 28th hearing. SAppx 845
This Court has established the standard for
granting of Summary Judgement in Tolan v. Cotton.
Tolan v. Cotton, 572 U.S. 650, 660 (2014). The
standard as outlined in Tolan is:
“Summary Judgment is appropriate only if the
‘Movant shows that there is no genuine issue as to any
material fact and the movant is entitled to judgment
as a matter of law.’ F.R.C.P. 56(a). In making that
determination, a court must view the evidence ‘in
light most favorable to the opposing party’ ”.
The Lower Courts erred in weighing the
evidence in the light most favorable to the ECFMG
(Movant) by ignoring “undisputed facts” that were not
favorable to Movant. The Lower Court erred in that

10
the “judge’s function” at summary judgement is not to
weigh the evidence and determine the truth of the
matter, but to determine whether there is a genuine
issue for trial. Brosseau v. Haugen, 543 U.S. 194, 195,
n 2 (2004) (per curium)
The Lower Court ignored facts established by
ECFMG’s “undisputed facts” listed below that no
notice or hearing had been given to Dr. Tulp prior to
the ECFMG posting derogatory website information.
The ECFMG action created a fact issue over whether
Dr. Tulp’s was given due process. SAppx 845
The ECFMG (Movant), by its own admissions,
created material fact issues as to whether Dr. Tulp,
(Non-Movant), received due process by the following
admissions:
1. The ECFMG placed a sponsor Note in the
World Directory of Medical Schools to inform
students specifically whether graduates were
eligible to apply for Movant’s certificate.
2. On or around September 14, 2018, The ECFMG
updated its Sponsor Notes for USAT with
negative information, SAppx778
3. The ECFMG updated its Sponsor Notes for
USAT again on or about October 18th with
negative information, SAppx 778
4. The ECFMG(Movant) sent Dr. Tulp a letter
summarizing and describing the allegations of
“Irregular behavior” on October 18, 2018, day
after publishing additional injurious negative
information on the Internet. SAppx 778
5. The ECFMG (Movant) published the
September 24th and October 18th Sponsor

11
Notes without giving Non-Movant Notice of
Hearing. SAppx 845
6. The ECFMG (Movant) admitted to sanctioning
Non-Movant prior to the November 28th
hearing. SAppx 845
As a result of the internet posting, there is a
factual dispute as to whether Dr. Tulp's (NonMovant) rights to notice and a fair hearing were
violated. SAppx 845 Adickes v. S.H. Kress & Co., 398
U.S. 144, 157 (1970). A material fact dispute exists
as to whether the ECFMG (Movant) followed the
“procedural safeguards which it specifically provided
prior to posting derogatory material on the internet.
Psi Upsilon of Phila v. Univ of Pa., 591 A 2d 755, 758
(Pa. Super. 1991). Specifically, any irregular behavior
finding is to be determined by the MECC after
meeting as a committee with the decision based on the
preponderance of the evidence before the committee
SAppx 0203.
A disputed fact issue exists as to whether Dr.
Tulp (Non-Movant) received due process in the
November 28th MECC hearing. The ECFMG’s
(Movant) own “undisputed” material facts are listed
below:
1. The MECC is required to make a “irregular
behavior” finding based on preponderance of
evidence before the committee meeting as a
body. SAppx 768
2. No evidence was presented at the November 28
MECC hearing. SAppx 769
3. The ECFMG acted prior to the November 28th
hearing. SAppx 845.

12
4. New evidence was given to Dr. Tulp (NonMovant) seconds before the November 28th
MECC hearing. SAppx 765
5. The November 28th hearing was adjourned
when Dr. Tulp’s attorney started to put
evidence into the record. SAppx 0397
The summary decision by the Lower Court was
that there were no material factual disputes as to
violations of Dr. Tulp (Non-Movant) due process
rights. To reach the conclusion that Dr. Tulp had no
material factual disputes, the Lower Court had to
ignore ECFMG’s “undisputed facts”. Dr. Tulp (NonMovant) was constructively excluded from portions of
the Credential Committee evidentiary proceedings
when evidence was withheld from him but supplied to
the Credential Committee members. The Appellate
Court in its decision used evidence not supplied to Dr.
Tulp to make its decision. S. App. 208, 403
ECFMG’s (Movant) action of withholding
material evidence from Dr. Tulp (Non-Movant) is per
se denial of fundamental due process. Over three
hundred student affidavits were withheld from Dr.
Tulp’s (Non-Movant). SAppx 0010 The ex parte
evidence was not made part of the hearing record. The
failure to disclose the ex parte evidence prejudiced Dr.
Tulp (Non-Movant) ability to respond to the
undisclosed evidence in a meaningful manner. Simer
v. Rios, 661 F.2d 655, 680.
The Third Circuit referenced evidence that was
not disclosed to Dr. Tulp (Non-movant). Furthermore,
such evidence was not made a part of the November
28th MCEE hearing record. Ex parte evidence taken
in the Non-movant’s absence violates the very
foundation of a fair hearing. A fundamental rule of

13
fairness is no evidence should be used against a
person which has not be brought to his attention.
Whether Dr. Tulp was denied fundamental due
process by the use of ex parte evidence is a factual
issue to be resolved by a fact finder.
When Dr. Tulp’s attorney pointed out to the
ECFMG’s litigation attorney chairperson that
evidence was being considered that had not been
disclosed, the chairperson rapidly adjourned the
Medical Education Credentials Committee (MECC)
meeting. SAppx 0397
Summary judgement is appropriate only if
there is no genuine issue of material fact such that a
reasonable fact finder could find for the non-moving
party. Celotex Corp v. Cartarett, 477 U.S. 317. At
least three disputed material facts preclude the
granting of summary judgment. The first disputed
material facts set is whether Dr. Tulp’s (Non-movant)
received notice and an opportunity to be heard prior
to the ECFMG’s (Movant) posting derogatory
information on the internet. The second disputed
material fact set is whether Dr. Tulp was given notice
of irregular behavior charges and had a meaningful
opportunity to be heard during the November 28th
MECC hearing. The third disputed material facts set
is whether the ex parte evidence considered by the
Credential Committee (MECC) which was not
disclosed in the hearing or made part of the record
prejudiced Dr. Tulp ability to respond to the ECFMG
(Movant) “irregular behavior” charges in a
meaningful manner.
By weighing the evidence and reaching factual
inferences contrary to the undisputed competent
evidence, the Lower Court failed to follow this Court’s

14
instructions on deciding summary judgment matters.
The Lower Court never addressed ECFMG(Movant)
posting of derogatory prejudicial internet information
prior to a hearing or notice. The internet posting prior
to any notice or hearing is admitted as a “minor”
violation by the Movant. The Lower Court ignored
this Court’s instructions articulated in Talon v.
Cotton. Tolan v. Cotton, 572 U.S. 650, 660 (2014).
Material factual disputes exist as to whether it
was fair or legal that Dr. Tulp(Non-Movant) should be
required by the ECFMG(Movant) to rebut evidence
that was never presented at the November 28th
hearing charging “irregular behavior”. The Lower
Court refused to draw a reasonable inference that a
material fact dispute existed as to whether Dr. Tulp
was denied due process. The Lower Court failed to
adhere to the fundamental principle that at the
summary judgment stage, reasonable inferences
should be drawn in Non-Movant’s favor. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 106 S. Ct. 2505
(1986).
CONCLUSION
The Court should grant the petition for a writ
of certiorari.
Respectfully submitted,
Tommy Swate
Counsel of Record
SWATE LAW
403 Wild Plum
Houston, Texas 77013
713-377-4860
Swatemd@aol.com

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Unpublished Opinion and Judgment of
The United States Court of Appeals
For the Third Circuit
entered August 17, 2020 ................................ 1a
Memorandum Opinion of
The United States District Court
For the Eastern District of Pennsylvania
entered June 25, 2019 .................................. 11a
Order of
The United States District Court
For the Eastern District of Pennsylvania
Re: Granting Defendant Education
Commission for Foreign Medical
Graduates’ Motion for Summary Judgment
entered June 25, 2019 .................................. 33a

1a
[ENTERED: August 17, 2020]
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2706
DR. ORIEN L. TULP, PRESIDENT OF THE
UNIVERSITY OF SCIENCE, ARTS, AND
TECHNOLOGY,
Appellant
v.
EDUCATIONAL COMMISSION FOR
FOREIGN MEDICAL GRADUATES;
DR. WILLIAM W. PINSKY, PRESIDENT AND
CEO, EDUCATIONAL COMMISSION FOR
FOREIGN MEDICAL GRADUATES
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(District Court No. 2-18-cv-05540)
District Judge: Hon. Wendy Beetlestone
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
May 19, 2020
Before: McKEE, BIBAS, and COWEN,
Circuit Judges
(Opinion filed: August 17, 2020)

2a

OPINION*
McKEE, Circuit Judge.
Dr. Orien Tulp is president of the University of
Science, Arts, and Technology, a medical school
ostensibly located in Montserrat, a volcanic isle in the
British Virgin Islands. Tulp claims his due process
rights were violated by the Education Commission for
Foreign Medical Graduates. The district court
granted summary judgment for ECFMG. Because we
find the record completely belies Tulp’s claims, we
will affirm.
I.
First, a jurisdictional note. For cases that were
originally filed in federal court, the bar for dismissal
for failure to meet the amount-in-controversy
requirement is high: “It must appear to a legal
certainty that the claim is really for less than the
jurisdictional amount to justify dismissal.”1 When
this suit was initially filed, jurisdiction was based on
federal question jurisdiction due to the § 1983 claim.2
The complaint also alleged diversity jurisdiction
because the parties were diverse. But, on appeal, after
the uncontested dismissal of the § 1983 claim, Tulp’s
This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

*

Suber v. Chrysler Corp., 104 F.3d 578, 583 (3d Cir. 1997), as
amended (Feb. 18, 1997) (quoting St. Paul Mercury Indem. Co.
v. Red Cab Co., 303 U.S. 283, 288–89 (1938)) (emphasis omitted).

1

2

28 U.S.C. § 1331.

3a
only remaining ground for jurisdiction is diversity.
However, he has never pled an amount in
controversy.
Although jurisdiction is not contested by the
parties, we nevertheless have an independent
responsibility to consider it and to dismiss when it is
lacking.3 Tulp did not earn a salary from his work at
USAT, and he testified to never having earned money
from USAT.4 When pressed to describe his damages,
Tulp provided unsubstantiated figures showing
substantial declines in enrollment for USAT.5
However, Tulp did not bother to supply the court with
any information about the monetary impact of those
enrollment changes. Since Tulp owns a 50%
ownership stake in the school, we can presume that
such enrollment losses (assuming the school netted
money per student enrolled) will eventually harm him
financially. The extent of that financial impact is
unclear, and it is neither practical nor appropriate for
us to attempt to quantify these claims. Nevertheless,
given the number or students involved and the scope
of USAT’s activities, we cannot conclude to a legal
certainty that Tulp does not satisfy the $75,000
jurisdictional limit. Therefore, although the precise
“[A]n objection to subject matter jurisdiction may be raised at
any time, a court may raise jurisdictional issues sua sponte, and
a court may consider evidence beyond the pleadings such as
testimony and depositions when considering a jurisdictional
challenge.” Group Against Smog and Pollution, Inc. v. Shenango
Inc., 810 F.3d 116, 122 n.6 (3d Cir. 2016) (citing Henderson ex
rel. Henderson v. Shinseki, 562 U.S. 428, 434–35 (2011); Gotha
v. United States, 115 F.3d 176, 179 (3d Cir. 1997)).

3

4

S. App. at 205, 747–49.

5

S. App. at 913-15.

4a
amount of damages remains doubtful, we conclude
that we do have subject matter jurisdiction and will
proceed to consider Tulp’s state law due process
claims.6 After doing so, we have no doubt that they
are meritless.
Given this is a non-precedential opinion, we
would normally only briefly state the procedural
history and the underlying facts, if at all. However, it
is impossible to appreciate the “flavor” of this dispute
without mentioning in greater detail some of what
has transpired to get us here. Moreover, much of the
conduct that we summarize falls far below the
minimum standards we expect of seasoned attorneys,
and we will not let the conduct pass without comment.
Thus, we begin with the fabled inquiry of Justice
Frankfurter: How did we get here?7
A.
Tulp’s school, and all other foreign medical
schools, require certification from the ECFMG as a
condition of their graduates being eligible to apply for
medical residencies in the United States. In 2018,
ECFMG began receiving reports that Tulp’s school
was offering medical school classes within the United
States. This would violate its status as a foreign
medical school. ECFMG started an investigation.
It sent affidavits to USAT students asking
where their medical training had taken place. More
than 300 students responded that classes had been
offered in different locations within the United States.
6

We have jurisdiction to do so under 28 U.S.C. § 1291.

RUGGERO J. ALDISERT, WINNING ON APPEAL:
AND ORAL ARGUMENT, 149 (1st ed. 1992).

7

BETTER BRIEFS

5a
Not a single respondent reported receiving a complete
medical education in Montserrat.8 These responses
also revealed further discrepancies in the data USAT
had provided to become certified.
ECFMG informed Tulp of their suspicions and
invited him to attend their credentials committee
meeting in Philadelphia on November 28, 2018.9 It
turned out to be a most memorable encounter. At that
meeting, Tulp’s attorney refused to provide any
information or to cooperate in any way. Rather than
cooperating with ECFMG, Tulp’s attorney accused
ECFMG of “blackmailing” USAT students by
questioning the school’s truthfulness, threatened the
individual committee members with personal liability
(“everybody in this room is going to be liable”10),
demanded to be told the name of the security guard
stationed outside the conference room,11 and even
insisted that ECFMG justify its investigation rather
than offering any defense of Tulp’s behavior. The
attorney stated, “Dr. Tulp is not going to be talking
today. The next time you hear him talk is going to be
in federal court.”12
Soon enough, Tulp filed suit against ECFMG
with a rambling complaint that appeared to make a
number of allegations: “(1) common law tortious
interference with contract against ECFMG; (2) a
claim pursuant to 42 U.S.C. § 1983 against ECFMG
8

S. App. 208, 403.

9

S. App. 075.

10

S. App. 380.

11

Id. at 373.

12

Id. at 386.

6a
for violating Plaintiff's procedural due process rights
as protected by the Fourteenth Amendment;
(3) violation of common law due process against
ECFMG; (4) common law fraud against ECFMG;
(5) common law abuse of process against ECFMG;
(6) common law negligent misrepresentation against
ECFMG; and, (7) a claim pursuant to 42 U.S.C. § 1983
against both Defendants for violating Plaintiff's
procedural and substantive due process rights as
protected by the Fourteenth Amendment.”13
The district court dismissed every count except
the common law due process allegation against
ECFMG based on Pennsylvania state law.
Ultimately, the district court granted summary
judgment to ECFMG on that count as well and this
appeal followed.
Summary judgment is appropriate when there
is no genuine issue of material fact.14 A particular
issue of fact is genuine if a reasonable jury could
return a verdict for the non-moving party, and it is
material if it would affect the outcome.15
B.
Appellees argue that ECFMG owed Tulp no
duty of common law due process at all. Pennsylvania
imposes a due process right on a private organization
“only under limited circumstances, as where the
private association has deprived a member or
Tulp v. Educ. Comm’n for Foreign Med. Graduates, 376 F.
Supp. 3d 531, 538 (E.D. Pa. 2019).

13

14

Celotex Corp. v. Catrett, 477 U.S. 317, 322–23 (1986).

15

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).

7a
prospective member of substantial economic or
professional advantages . . .”16 Arguably those
conditions are satisfied here, although we note that
ECFMG’s disciplinary actions were against Dr. Tulp
personally and did not prevent USAT from operating
or prevent Tulp from teaching there or elsewhere.
More importantly, the Pennsylvania Supreme
Court cautions us that “[c]ourts should not interfere
with internal procedure and discipline unless real
prejudice, bias or denial of due process is present.”17
No such prejudice or unfairness of any sort existed
here. Instead, the behavior of Tulip’s attorney before
the ECFMG committee’s inquiry can best be
described as a waste of time characterized by
unprofessional grandstanding and legal obfuscation.
Tulp received notice of the hearing, was allowed to
attend with counsel, and was repeatedly invited to
offer evidence in his own defense. He deliberately
refused to do so. Any resultant loss of an opportunity
to be heard rests squarely with Tulp and his counsel,
not ECFMG, and Tulp’s argument to the contrary is
frivolous. There is simply no due process violation on
this record.
Tulp further argues that he should have
received more opportunities to be heard, and that
ECFMG’s public notice of their inquiry—which
damaged USAT’s reputation before the hearing even
took place—were separate violations. The district
court considered and dismissed those claims. Tulp has
Sch. Dist. of City of Harrisburg v. Pennsylvania Interscholastic
Athletic Ass'n, 309 A.2d 353, 357 (Pa. 1973).
16

Psi Upsilon of Philadelphia v. Univ. of Pennsylvania, 591 A.2d
755, 760 (Pa. Super. Ct. 1991).
17

8a
presented nothing that would raise a genuine issue of
material fact and we therefore conclude that the
district court correctly awarded summary judgment
to ECFMG on both claims.18
III.
For these reasons, we will affirm the district
court’s order granting summary judgment to ECFMG.

Far from presenting disputed facts, Tulp’s brief contains
demonstrably inaccurate allegations. It suggests, for instance,
that ECFMG’s hearing was “a sham” that lacked “any evidence
in the administrative record.” Appellant’s Br. at 12. Such
statements are directly contradicted by the transcript of that
proceeding and exceed the bounds of zealous advocacy.
18

9a
[ENTERED: August 17, 2020]
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2706
DR. ORIEN L. TULP, PRESIDENT OF THE
UNIVERSITY OF SCIENCE, ARTS, AND
TECHNOLOGY,
Appellant
v.
EDUCATIONAL COMMISSION FOR
FOREIGN MEDICAL GRADUATES;
DR. WILLIAM W. PINSKY, PRESIDENT AND
CEO, EDUCATIONAL COMMISSION FOR
FOREIGN MEDICAL GRADUATES
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(District Court No. 2-18-cv-05540)
District Judge: Hon. Wendy Beetlestone
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
May 19, 2020
Before: McKEE, BIBAS and COWEN, Circuit Judges
JUDGMENT

10a
This cause came to be considered on the record
from the United States District Court for the Eastern
District of Pennsylvania and was submitted May 19,
2020. On consideration whereof,
It is now hereby ORDERED and ADJUDGED
by this Court that the Order of the District Court,
entered on June 25, 2019, is hereby AFFIRMED. All
of the above in accordance with the opinion of the
Court.
Costs Taxed Against Appellant.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: August 17, 2020

11a
[ENTERED: June 25, 2019]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
DR. ORIEN L. TULP,
Plaintiff,

| CIVIL ACTION
|
|
v.
|
|
NO. 18-5540
EDUCATIONAL COMMISSION |
FOR FOREIGN MEDICAL
|
GRADUATES AND
|
DR. WILLIAM W. PINSKY,
|
Defendants.
|
MEMORANDUM OPINION
This case is, in effect, Plaintiff Orien Tulp’s
challenge to the disciplinary action taken by
Defendant Education Commission for Foreign
Medical Graduates (“ECFMG”) against Plaintiff for
providing false information about the branch
campuses of an overseas medical school. The Court
previously dismissed Plaintiff’s various constitutional
and common law claims, with the sole exception of a
common law due process claim. See Tulp v. Educ.
Comm’n for Foreign Med. Graduates, 2019 WL
1382725, at *1 (E.D. Pa. Mar. 26, 2019). ECFMG now
moves for summary judgment on this last remaining
claim. For the reasons that follow, ECFMG’s motion
will be granted.
I.

LEGAL STANDARD

Summary judgment must be granted to a
moving party if “there is no genuine dispute as to any

12a
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a); see also
Alabama v. North Carolina, 560 U.S. 330, 344 (2010).
A genuine dispute “exists if the evidence is such that
a reasonable jury could return a verdict for the nonmoving party.” U.S. ex rel. Greenfield v. Medco Health
Solutions, Inc., 880 F.3d 89, 93 (3d Cir. 2018).
The party opposing the motion for summary
judgment must “go beyond the pleadings,” Celotex
Corp. v. Catrett, 477 U.S. 317, 324 (1986), and
demonstrate that “a fact . . . is genuinely disputed” by
“citing to particular parts of materials in the record,”
Fed. R. Civ. P. 56(c); Doe v. Abington Friends Sch.,
480 F.3d 252, 256 (3d Cir. 2007) (“The non-moving
party may not merely deny the allegations in the
moving party’s pleadings; instead he must show
where in the record there exists a genuine dispute
over a material fact.”). When the non-movant “fails to
properly address [the movant’s] assertion of fact . . .
the court may . . . consider the fact undisputed for
purposes of the motion,” and “grant summary
judgment if the motion and supporting materials—
including the facts considered undisputed—show that
the movant is entitled to it.” Fed. R. Civ. P. 56(e)(2);
see, e.g., Payne v. City of Philadelphia, 2016 WL
1298951, at *2 (E.D. Pa. Apr. 4, 2016).
In accordance with this Court’s policies and
procedures, ECFMG submitted a statement of
material facts along with its summary judgment
motion, supported by citations to the record.
Plaintiff’s response neither meaningfully addressed
ECFMG’s assertions of fact nor demonstrated that
any of those assertions were genuinely disputed.
Instead, Plaintiff recited the allegations contained in

13a
the Complaint or else produced conclusory assertions
without citation to the record. Accordingly, the Court
will consider ECFMG’s account of the facts
undisputed for purpose of resolving this motion.
Lastly, where, as here, a federal court is
interpreting Pennsylvania law, the federal court must
follow the Pennsylvania Supreme Court. In re Energy
Future Holdings Corp., 842 F.3d 247, 253-54 (3d Cir.
2016). If the law is unclear and there is no controlling
precedent issued by Pennsylvania’s highest court, a
federal court must “predict” how it would rule, giving
“due regard, but not conclusive effect, to the
decisional law of lower state courts.” Nationwide Mut.
Ins. Co. v. Buffetta, 230 F.3d 634, 637 (3d Cir. 2000).
II.

FACTS & PROCEDURAL HISTORY
A.

ECFMG’s Policies & Procedures

ECFMG is a private, non-profit organization
based in Philadelphia that certifies international
medical graduates (“IMGs”) so that those students
can pursue post-graduate medical training in the
United States. Specifically, ECFMG: (1) certifies the
readiness of IMGs through an evaluation of their
qualifications,
(2)
verifies
IMGs’
education
credentials, and (3) provides that information to
graduate medical programs and other health care
providers. As part of the verification process, ECFMG
collects certain documentation from IMGs, including
documentation confirming that graduates attended a
recognized international medical school.
ECFMG defines an international medical
school as “an education facility located in a country
outside of the United States and Canada with its

14a
primary campuses and main operations located in
that country.” Where an international medical school
operates branch campuses, ECFMG requires
confirmation that “the branch campus is authorized
to operate as a medical school in the branch campus
country” and that the international medical school
“awards degrees that meet the medical education
eligibility requirements for licensure to practice
medicine in the branch campus country.” Only
graduates from a bona fide international medical
school can obtain ECFMG certification.
To ensure the integrity of its certification
process, ECFMG maintains policies to detect and
snuff out “irregular behavior.” The policies are set
forth in ECFMG’s publicly available Policies and
Procedures Regarding Irregular Behavior, which
define “irregular behavior” as “all actions or
attempted actions on the part of applicants,
examinees, potential applicants, others when
solicited by an applicant and/or examinee, or any
other person that would or could subvert the
examination, certification or other processes,
programs or services of ECFMG[.]” “Examples of
irregular behavior include . . . submission of any
falsified or altered document to ECFMG, whether
submitted by the individual or by a third party, such
as a medical school, on behalf of the individual,” and
“falsification of information on applications,
submissions, or other materials to ECFMG.” The
Policies and Procures make clear that “such actions or
attempted actions are considered irregular behavior,
regardless of when the irregular behavior occurs, and
regardless of whether the individual is certified by
ECFMG.”

15a
The Policies and Procedures also set out a
specific process by which ECFMG investigates
suspected irregular behavior, determines whether an
individual engaged in irregular behavior, and takes
remedial action if a finding of irregular behavior is
made:
x

After receipt of a report or other information
suggesting irregular behavior on the part of an
individual, ECFMG staff will review the
information and will assess whether there is
sufficient evidence of irregular behavior. When
indicated and feasible, staff will conduct a
follow-up investigation to gather additional
information.

x

If ECFMG staff finds that there exists a
reasonable basis to conclude that an individual
may have engaged in irregular behavior, the
matter will be referred to the Medical
Education Credentials Committee [hereinafter
“Credentials Committee].

x

[T]he individual will be advised in writing of
the nature of the alleged irregular behavior
and will be provided with a copy of the Policies
and Procedures Regarding Irregular Behavior.

x

The individual will be given an opportunity to
provide written explanation and to present
other relevant information.

x

The individual may also request the
opportunity to appear personally before the
[Credentials Committee], and may be
represented by legal counsel, if the individual
so wishes.

16a
x

All pertinent information regarding the
irregular behavior, including any explanation
or other information that the individual may
provide, will be provided to the [Credentials
Committee]. The [Credentials Committee],
based on the information available to it, will
determine whether the preponderance of the
evidence indicates that the individual engaged
in irregular behavior.

x

If the [Credentials Committee] determines that
the individual engaged in irregular behavior,
the [Credentials Committee] will determine
what action(s) will be taken as a result of the
irregular behavior. ECFMG will notify the
individual whether the [Credentials Committee]
determined the individual engaged in irregular
behavior and of any action(s) taken pursuant
thereto.

x

The [Credentials Committee]’s determination
of irregular behavior and any action(s) taken
pursuant thereto . . . may be appealed to the
Review Committee for Appeals if the individual
has a reasonable basis to believe the [Credentials
Committee] did not act in compliance with the
Medical Education Credentials Committee
Policies and Procedures or that the
[Credentials Committee]’s decision was clearly
contrary to the weight of the evidence before it.
B.

ECFMG’s Investigation of Plaintiff

Plaintiff is President of the University of
Science, Arts, and Technology (“USAT”), a medical
school headquartered on the British Overseas
Territory of Montserrat. In July and August of 2018,

17a
ECFMG received information—including an email
from the parent of a USAT student—indicating that
USAT was offering classes in Miami, Florida. On
August 21, 2018, ECFMG emailed Plaintiff,
informing him that “[i]t ha[d] recently come to the
attention of [ECFMG] that USAT in Montserrat is
operating a satellite (or branch) campus in Miami,
Florida,”
and
requesting
Plaintiff
produce
“documentation from the United States Department
of Education and/or the Florida Department of
Education confirming that USAT’s Miami branch
campus is authorized to operate as a medical school
in the United States.” ECFMG never received any
such documentation.
Instead, on August 21, 2018,
responded to ECFMG’s email, as follows:

Plaintiff

This is incorrect information. The
Miami location is an information and
testing site only . . . and an Orientation
for new students is conducted prior to
their traveling to the Caribbean. It is
NOT a campus. Our ONLY Campus is
located in Olveston, Montserrat, British
West Indies.
Actually, recall that Montserrat is
a volcanic Island, and the license issued
to USAT in September, 2003 DOES
actually permit the establishment of offcampus lecture and administrative sites
as needed. USAT has students on island
on a year round basis since its origination.
I hope this will clarify your
concern.

18a
On September 14, 2018, ECFMG’s Vice
President of Operations, Kara Corrado, sent Plaintiff
a follow-up email, stating that ECFMG “received
information USAT is providing medical education
lectures not only at its Miami site, but also at sites in
Tampa, FL, and Dallas, TX.” The email ECFMG
would “continue[] its review of this matter,” and that
“as part of its review, ECFMG has reached out to
students and graduates of USAT in order to collect
information from them regarding their attendance at
USAT.” Corrado continued:
Effective today, USAT students and
graduates seeking services related to
ECFMG Certification . . . must complete
and submit an affidavit attesting to the
accuracy of the medical school
information provided to ECFMG.
Services will not be provided to
individuals who do not complete the
affidavit.
ECFMG
has
provided
instructions about this process directly
to the students and graduates.
Consistent with Corrado’s email, ECFMG sent
affidavits to USAT students and graduates, asking
them to certify their dates of attendance at USAT as
well as the location where they took their basic
science courses. More than 300 students submitted
affidavits indicating that they took classes in the
United States; none indicated that they took courses
in Montserrat.
On September 24, 2018, ECFMG also updated
its Sponsor Note for USAT on the World Directory of
Medical School—the directory maintained by ECFMG

19a
to inform the public of the eligibility of a school’s
graduates to start the process of ECFMG
certification. The Sponsor Note stated that “students
and graduates of USAT are subject to enhanced
procedures that must be met in order to be eligible for
ECFMG Certification related services[.]”
C.

ECFMG’s
Irregular
Behavior
Proceedings Against Plaintiff

On October 18, 2018, ECFMG sent Plaintiff an
email, advising him
of the allegation that you, individually
and in your capacity as an official of
the University of Science, Arts &
Technology (USAT) Faculty of Medicine,
Montserrat, engaged in irregular
behavior in connection with providing
false information to ECFMG. Specifically,
you provided false information to ECFMG
when you (1) notified ECFMG that
USAT does not operate a branch campus
in Miami, Florida and (2) certified to the
attendance dates of several USAT
students and graduates when ECFMG
has information that these students
were not attending USAT during some of
the time periods to which you certified.
In addition, the letter summarized the procedure by
which the Credential Committee would review the
allegations. The letter: explained that matter was
being referred to the Credential Committee for review
at its November 28, 2018 meeting; advised Plaintiff to
review the Credentials Committee’s Policies and
Procedures, which were attached to the email;

20a
informed Plaintiff that he had the opportunity to
appear before the Credential Committee on
November 28, accompanied by legal counsel; listed
the documents the Credential Committee would be
reviewing on that date, which were also attached to
the email; and, requested Plaintiff provide a written
response to the allegations by November 1, 2018. On
October 18, ECFMG also updated USAT’s Sponsor
Note, as follows: “As of January 1, 2019, students and
graduates of this medical school with a graduation
year of 2019 and later are not eligible to apply to
ECFMG for ECFMG Certification[.]”
Plaintiff, through counsel, responded to
ECFMG’s letter on October 23, 2018.1 Plaintiff
confirmed that he would attend the November 28
hearing, requested additional documentation about
the allegations, and questioned ECFMG’s decision to
change USAT’s Sponsor Note prior to the hearing. On
October 26, 2018, Corrado clarified that the
allegations of irregular behavior concerned only
Plaintiff’s actions, and not USAT more broadly. Then,
on November 14, 2018, Corrado emailed Plaintiff’s
counsel, confirming that:
[Plaintiff] is scheduled to appear before
the ECFMG Committee with you and
Mr. Reil (Dr. Tulp’s attorneys) on
Wednesday November 28, 2018 at 9:00
AM. . . . In accordance with ECFMG’s
standard practice, Dr. Tulp will be
scheduled for 20 minutes, during which
time he will have the opportunity to
present his response to these allegations
1

The letter was incorrectly dated September 23, 2018.

21a
(either personally or through his
counsel) and the ECFMG Committee
members, ECFMG counsel, and staff
will have the opportunity to ask
questions. After that, Dr. Tulp may
provide a brief, closing statement.
Corrado also provided Plaintiff’s counsel with the
materials that the Credentials Committee would
review at the meeting. On November 16, 2018,
Corrado sent Plaintiff’s counsel a follow-up email to
“confirm that you have received the materials that the
ECFMG Committee will review at its meeting on
November 28, 2018 related to the allegations of
irregular behavior for [Plaintiff].” The same day,
Plaintiff’s counsel responded, stating that he had
received the documents.
On November 28, 2018, Plaintiff appeared
before the Credential Committee, accompanied by
counsel. At the outset of the hearing, ECFMG again
provided Plaintiff with copies of the materials under
consideration. After Corrado summarized the
allegations of irregular behavior, Plaintiff’s counsel
made his opening remarks, stating:
First, I would like to ask for the—I’ve
asked and I’ve asked and I’ve asked for
the packet that was presented to the
committee members. I would like a copy
of the packet, the information that was
submitted to the committee members so
that I will know what was considered by
the committee before we came here today
because you’re considering information
that I may or may not know about.

22a
Counsel for ECFMG directed Plaintiff’s counsel to the
printed materials provided at the beginning of the
hearing and reiterated that all materials under
consideration by the Credential Committee had been
provided to Plaintiff and his counsel on several
occasions.
Plaintiff’s counsel then made a series of legal
arguments to the effect that ECFMG: (1) had “no
jurisdiction over [Plaintiff],” (2) bore “the sole exclusive
burden of proof,” (3) had “a duty of presenting . . .
evidence . . . before [Plaintiff] has to answer anything,”
but failed to do so, (4) “co-mingl[ed] . . . the prosecutorial
and jury functions,” (5) prejudged the matter by
taking action against USAT, and (6) failed to provide
Plaintiff with the “regulations and protocols for these
meetings[.]” Plaintiff’s counsel concluded: “That is our
opening statement. If you have any questions, you can
address them to me. [Plaintiff] will not be answering
any questions.”
Counsel for ECFMG and Plaintiff then engaged
in a protracted back-and-forth, in which ECFMG’s
counsel invited Plaintiff to provide evidence or
testimony addressing the allegations of irregular
behavior and Plaintiff’s counsel declined, arguing
ECFMG carried the burden of production. After
roughly nine minutes of this back-and-forth, counsel
for ECFMG terminated the hearing, by stating:
“You’re not providing any evidence. So thank you for
coming today[.]”
D.

Irregular Behavior Determination

On December 14, 2018, ECFMG notified
Plaintiff via email that the Credential Committee had
completed its review and determined that Plaintiff

23a
had engaged in irregular behavior. Specifically, the
Credential Committee found Plaintiff provided false
information when he “notified ECFMG that USAT
does not operate a branch campus in Miami, FL” and
“certified to the attendance dates of several USAT
students and graduates when ECFMG has
information that these students were not attending
USAT during some of the time periods to which you
certified.”
As a result, ECFMG informed Plaintiff that it
was taking the following disciplinary action: (1)
refusing, for a minimum of five years, to accept any
documents signed and/or certified by Plaintiff; (2)
adding to ECFMG’s Sponsor Note for USAT that “a
certain official of [USAT] engaged in irregular
behavior in connection with providing false
information to ECFMG;” and, (3) making a
permanent annotation in Plaintiff’s ECFMG record
that he engaged in irregular behavior. ECFMG also
informed Plaintiff that he had thirty days to appeal
the decision. Plaintiff did not petition for
reconsideration of the Credential Committee’s
determination.
E.

Procedural History

On December 24, 2018, Plaintiff initiated this
action against ECFMG and Dr. William Pinsky, the
President of ECFMG, and, on January 2, 2019, filed a
motion for a preliminary injunction. On January 22,
2019, Defendants moved to dismiss the Complaint.
Two days later, on January 24, 2019, the Court held
a hearing on Plaintiff’s preliminary injunction motion
and denied the request for preliminary relief for the
reasons stated on the record. On March 26, 2019, the

24a
Court granted Defendants’ motion to dismiss as to all
of Plaintiff’s claims against Dr. Pinsky, and as to all
of Plaintiff’s claims against ECFMG, with the
exception of the common law due process claim. See
Tulp, 2019 WL 1382725 at *1. ECFMG now moves for
summary judgment on this last claim.
III.

DISCUSSION

“The touchstone of due process is protection of
the individual against arbitrary action[.]” Wolf v.
McDonnell, 418 U.S. 539, 5588 (1974). Many
jurisdictions, Pennsylvania included, recognize a
limited common law due process cause of action in
addition to the more familiar constitutional due
process cause of action. See McKeesport Hosp. v.
Accreditation Council for Graduate Med. Educ., 24
F.3d 519, 534-35 (3d Cir. 1994) (Becker, J., concurring
in the judgment) (collecting cases); Sch. Dist. of City
of Harrisburg v. Pa. Interscholastic Athletic Ass’n, 309
A.2d 353, 357 (Pa. 1973) (recognizing the existence of
a common law duty).
Under
Pennsylvania
law,
“private
associations” owe a common law duty of due process
“only under limited circumstances.” Sch. Dist. of City
of Harrisburg, 309 A.2d at 357. One such instance is
where a private organization that serves a public
function subjects a party to disciplinary action. See
Psi Upsilon of Phila. v. Univ. of Pa., 591 A.2d 755, 758
(Pa. Super. 1991) (holding that the University of
Pennsylvania, a private organization, owed a common
law duty of due process to a group of college students
that it subjected to disciplinary action); Boehm v.
Univ. of Pa. Sch. of Veterinary Med., 573 A.2d 575,
579 (Pa. Super. 1990) (holding that the University of

25a
Pennsylvania owed a common law duty to graduate
students disciplined for academic misconduct). The
duty “operate[s] as a ‘check on organizations that
exercise significant authority in areas of public
concern such as accreditation and licensing.’” Prof’l
Massage Training Ctr., Inc. v. Accreditation All. of
Career Sch. & Colls., 781 F.3d 161, 169 (4th Cir. 2015)
(quoting Thomas M. Cooley Law Sch. v. Am. Bar
Ass’n, 459 F.3d 705, 712 (6th Cir. 2006)). Because
such “quasi-public” organizations, “like all other
bureaucratic entities, can run off the rails,” the
common law duty of due process ensures that such
entities are not “wholly free of judicial oversight.”
Id.
“The requirements of common law due process
are quite similar to those for constitutional due
process[.]” McKeesport Hosp., 24 F.3d at 535.
Common law due process requires that the
disciplining organization adhere “to those procedural
safeguards which the [organization] specifically
provides.” Psi Upsilon, 591 A.2d at 759; Boehm 573
A.2d at 585 (finding due process satisfied where
the University “followed its Code of Rights
punctiliously”). In addition, those procedural
safeguards must accord with “basic principles of . . .
fundamental fairness,” meaning “notice” and “an
opportunity to be heard.” Psi Upsilon, 591 A.2d at
759; Boehm 573 A.2d at 585 (holding due process met
where plaintiff “had notice and an opportunity to be
heard”); Sch. Dist. of City of Harrisburg, 309 A.2d at
358 (holding due process requirement where
disciplined party “was afforded notice of the action

26a
taken against it and . . . availed itself of the
opportunity to be heard”).2
The notice requirement is satisfied where the
disciplinary body provides “notice of the charges
against [the disciplined party] and also of the
evidence against [the disciplined party].” Boehm, 573
A.2d at 582; Psi Upsilon, 591 A.2d at 759 (holding
plaintiffs afforded notice where University provided
statement laying out charges and reciting factual
allegations underpinning charges). As for an
opportunity to be heard, the disciplinary body must
provide “an opportunity [for the disciplined party] to
present his side of the story.” Biliski v. Red Clay
Consol. Sch. Bd. of Educ., 574 F.3d 214, 220 (3d Cir.
2009) (quoting Cleveland Bd. of Ed. v. Loudermill,
470 U.S. 532, 542 (1985)). Thus, due process requires
“the opportunity to present reasons, either in person
or in writing, why proposed action should not be
taken.” Id. (quoting Loudermill, 470 U.S. at 542);
When dealing with constitutional due process claims,
Pennsylvania courts apply the familiar balancing test set out in
Matthews v. Eldridge, 424 U.S. 319 (1976), to determine the
amount of process due. Id. at 335; see, e.g., Bundy v. Wetzel, 184
A.3d 551, 557 (Pa. 2018). But the few Pennsylvania cases to
address common law due process claims have not employed the
Matthews v. Eldridge framework. See, e.g., Psi Upsilon, 591 A.2d
at 759; Boehm 573 A.2d at 585. Instead, those cases have
employed a case-by-case analysis into whether the disciplined
party was “given a fair hearing.” Boehm 573 A.2d at 584.
Accordingly, this Court predicts that Pennsylvania law would
not require the Court to apply Matthews v. Eldridge here, but
rather, requires the Court to evaluate whether Plaintiff was
“given a fair hearing” by reference to those Pennsylvania cases
that have evaluated common law due process claims, and cases
concerning due process more generally. Cf. McKeesport Hosp., 24
F.3d at 535 (“The requirements of common law due process are
quite similar to those for constitutional due process[.]”).

2

27a
Boehm, 573 A.2d at 508 (explaining that an individual
must be provided with the opportunity to “produce
either oral testimony or written affidavits of
witnesses on his behalf”) (quoting Dixon v. Al. State
Bd. of Ed., 294 F.2d 150, 158 (5th Cir. 1961)). Where
in-person testimony is permitted, such hearings “need
not be elaborate,” Biliski, 574 F.3d at 220 (quoting
FDIC v. Mallen, 486 U.S. 230, 247 (1988)), “subject to
strict rules of judicial procedure,” Psi Upsilon, 591
A.2d at 761, or have all the trappings of “a full-dress
judicial hearing,” Boehm, 573 A.2d at 508 (quoting
Dixon, 294 F.2d at 158).
Here, as the Court previously explained,
ECFMG is a “quasi-public” private organization
because it “exercises significant authority in areas of
public concern,” Prof’l Massage Training Ctr., 781
F.3d at 169—namely, by certifying IMGs so that those
students can pursue post-graduate medical training
in the United States and ensuring the integrity of that
certification process, Tulp, 2019 WL 1382725 at *5-6.
As such, it must “employ fair procedures when
making decisions,” with regard to individuals—like
Plaintiff—that it subjects to disciplinary action.
McKeesport, 24 F.3d at 535. Thus, ECFMG owed
Plaintiff a common law duty of due process
throughout the irregular behavior investigation.
The undisputed facts demonstrate that
ECFMG complied with that duty. First, its
investigation and irregular behavior determination
adhered to the procedural safeguards set forth in its
publicly-available
Policies
and
Procedures—
specifically,

28a
x

Whereas the Policies and Procedures provide
that “[i]f ECFMG staff finds that there exists a
reasonable basis to conclude that an individual
may have engaged in irregular behavior, the
matter will be referred to the [Credentials
Committee];” here, after an investigation into
USAT’s Florida-based campuses revealed that
Plaintiff provided false information regarding
USAT’s operations, ECFMG referred the issue
to the Credentials Committee for a hearing;

x

Whereas the Policies and Procedures provide
that “the individual will be advised in writing
of the nature of the alleged irregular behavior
and will be provided with a copy of the Policies
and
Procedures
Regarding
Irregular
Behavior;” here, on October 18, 2018, ECFMG
emailed Plaintiff: a letter advising him of the
irregular behavior allegations, a copy of the
Policies and Procedures Regarding Irregular
Behavior, and copies of the documents provided
to the Credentials Committee upon which the
allegations were based;

x

Whereas the Policies and Procedures provide
that “[t]he individual will be given an
opportunity to provide written explanation
and to present other relevant information;”
here, in the October 18 email, ECFMG
provided Plaintiff an opportunity to provide a
written response to the charges of irregular
behavior, and, on October 23, 2018, Plaintiff’s
counsel provided a written response to the
allegations;

29a
x

Whereas the Policies and Procedures provide
that “[t]he individual may also request the
opportunity to appear personally before the
[Credentials Committee], and may be
represented by legal counsel, if the individual
so wishes;” here, in the same October 18 email,
ECFMG informed Plaintiff of that opportunity,
and, on November 28, 2018, Plaintiff was
afforded the opportunity to present evidence
and testimony to the Credential Committee,
accompanied by counsel;

x

Whereas the Policies and Procedures provide
that the “[Credentials Committee], based on
the information available to it, will determine
whether the preponderance of the evidence
indicates that the individual engaged in
irregular behavior;” here, after reviewing the
documentary
evidence
and
Plaintiff’s
November 28 presentation, the Credential
Committee determined that Plaintiff had
engaged in irregular behavior by providing
false information about USAT’s activities;

x

Whereas the Policies and Procedures provide
that “ECFMG will notify the individual
whether
the
[Credentials
Committee]
determined the individual engaged in irregular
behavior and of any action(s) taken pursuant
thereto;” here, on December 14, 2018, ECFMG
notified Plaintiff via email that the Credential
Committee had determined that he engaged in
irregular behavior, explained the grounds for
that decision, and informed Plaintiff of the
disciplinary action being taken against him;

30a
x

Whereas the Policies and Procedures provide that
the “[Credentials Committee]’s determination
of irregular behavior and any action(s) taken
pursuant thereto . . . may be appealed;” here,
in the December 14 email, ECFMG informed
Plaintiff of his ability to appeal the decision.

Thus, ECFMG followed “the procedural safeguards
which [it] specifically provide[d].” Psi Upsilon, 591
A.2d at 759.
Second, the procedural safeguards ECFMG
provided comported with “basic principles of . . .
fundamental fairness” because they afforded Plaintiff
both notice and an opportunity to be heard. Id. As to
notice, ECFMG’s October 18 email advised Plaintiff of
the irregular behavior allegations and provided copies
of the documents upon which those allegations were
based, satisfying the notice requirement. Id.; Boehm,
573 A.2d at 582. As for an opportunity to be heard,
ECFMG afforded Plaintiff the opportunity to provide
a written response to the allegations of irregular
behavior and to present oral testimony at the
November 28 hearing—opportunities that Plaintiff,
through his counsel, took advantage of. Accordingly,
Plaintiff was provided “the opportunity to present
reasons, [both] in person [and] in writing, why
[ECFMG’s] proposed action should not be taken,”
satisfying the opportunity-to-be-heard requirement.
Biliski, 574 F.3d at 221.
Plaintiff arguments to the contrary are
scattershot and, at times, difficult to follow. The gist
appears to be that the November 28 hearing was
inadequate and therefore deprived Plaintiff of a

31a
meaningful opportunity to be heard.3 There are
several problems with Plaintiff’s position. To start—
and putting the November 28 hearing aside for now—
Plaintiff was afforded an opportunity to be heard
when ECFMG invited him to submit a written reply
to the allegations of irregular behavior. All that due
process required here was the “opportunity to present
reasons, either in person or in writing, why proposed
action should not be taken,” Biliski, 574 F.3d at 220
(emphasis added). The fact that Plaintiff was invited
to present written responses to the allegations of
irregular behavior puts paid to the argument that
ECFMG deprived him of an opportunity to be heard.
Turning to the November 28 hearing, Plaintiff
complains that the hearing was procedurally
inadequate—because ECFMG allotted only twenty
minutes for it, because ECFMG relied on its
documentary evidence and did not present live
testimony, and because ECFMG did not allow him to
cross-examine witnesses. But, as already noted, due
process does not require the full panoply of procedural
protections available in other proceedings. See
Boehm, 573 A.2d at 508 (holding due process does not
require “a full-dress judicial hearing, with the right to
cross-examine witnesses”) (internal quotation marks
omitted); Sch. Dist. of City of Harrisburg, 309 A.2d at
358 (finding due process met where petitioner “offered
testimony,” at “a regularly scheduled meeting” of the
disciplinary body). Here, all that ECFMG was
required to provide was an opportunity for Plaintiff
Plaintiff neither appears to argue that ECFMG failed to adhere
to the procedural safeguards set forth in the publicly-available
Policies and Procedures, nor that ECFMG provided inadequate
notice of the allegations against him.

3

32a
“to present his side of the story,” Biliski, 574 F.3d at
220 (internal quotation marks omitted), and the
November 28 hearing satisfied that requirement.
Lastly, Plaintiff argues that the early
termination of the hearing violated his due process
rights. The record demonstrates, however, that after
delivering his opening statement, Plaintiff declined to
provide additional evidence or testimony, and that
ECFMG then terminating the hearing. Plaintiff’s
choice to sit on his hands, however, does not render
the November 28 hearing inadequate. Cf. Psi Upsilon,
591 A.2d at 760 (holding disciplinary hearing did not
violate due process where plaintiffs invoked privilege
against self-incrimination, given pending criminal
charges, and thus did not testify or present evidence).
Thus, Plaintiff was given ample opportunity “to
present his side of the story,” Biliski, 574 F.3d at 220;
“if [he] did not make the best use of those
opportunities . . . the blame cannot be placed on
[ECFMG],” Marlboro Corp. v. Ass’n of Indep. Colls. &
Sch., Inc., 556 F.2d 78, 82 (1st Cir. 1977).
In sum, the record demonstrates that ECFMG
provided Plaintiff all the process he was due.
ECFMG’s motion for summary judgment on
Plaintiff’s common law due process claim will be
granted accordingly.
June 25, 2019

BY THE COURT:
/s/Wendy Beetlestone, J.
WENDY BEETLESTONE, J.

33a
[ENTERED: June 25, 2019]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
DR. ORIEN L. TULP,
Plaintiff,

| CIVIL ACTION
|
|
v.
|
|
NO. 18-5540
EDUCATIONAL COMMISSION |
FOR FOREIGN MEDICAL
|
GRADUATES AND
|
DR. WILLIAM W. PINSKY,
|
Defendants.
|
ORDER
AND NOW, this 25th day of June, 2019, upon
consideration of Defendant Education Commission
for Foreign Medical Graduates’ Motion for Summary
Judgment (ECF No. 31), and Plaintiff’s opposition
thereto (ECF No. 33), IT IS HEREBY ORDERED
that Defendant’s Motion is GRANTED.
IT IS FURTHER ORDERED that the Clerk
of Court shall mark this case as CLOSED.
BY THE COURT:
/S/Wendy Beetlestone, J.
WENDY BEETLESTONE, J.

